June 28, 2013
SIGAR Alert 13-3
Congressional Committees:
In May 2013, SIGAR issued an audit that identified nearly $1 billion in business taxes and penalties
imposed by the Afghan government on contractors supporting U.S. operations. 1 In this follow-up letter to
that report, we identify additional costs—including various fees, fines, and penalties—that the Afghan
government imposed on many of those same contractors. 2 These additional fines, fees, and penalties may
cost these contractors, and ultimately the U.S. government, hundreds of millions of dollars, and the actions
taken by the Afghan government to enforce them may have an adverse effect on U.S. military operations.
As such, we believe that these costs warrant the immediate attention of Congress.
Since 2002, Congress has appropriated nearly $93 billion to U.S. government agencies, including the
Department of Defense (DOD), Department of State (State), and the U.S. Agency for International
Development (USAID), to implement humanitarian and reconstruction programs and projects in
Afghanistan. U.S. government agencies, in turn, have awarded billions of dollars to contractors to
implement those programs and projects. Contractors play important roles in the reconstruction effort by
procuring goods and services needed to build roads, schools, and hospitals; equip, train, and house
Afghan security forces; and support U.S. personnel working in Afghanistan.

The U.S. government does not have a comprehensive agreement with the government of Afghanistan that
determines the tax status of all contractors working on behalf of the U.S. government. Rather, individual
U.S. government agencies—DOD, State’s Bureau of International Narcotics and Law Enforcement Affairs
(INL), and USAID—have executed bilateral agreements with the Afghan government that exempt
contractors supporting agency-funded contracts from paying various Afghan taxes. Each of these individual
agreements also exempts goods imported into Afghanistan from tariffs, customs duties, and other fees.
See appendix II for the specific language contained in each applicable agreement.

We identified four types of additional costs imposed on contractors supporting U.S. operations,
summarized below and discussed in more detail in appendix I.
      •    Customs process fees. U.S. government agencies, including DOD, have executed a number of
           international agreements with the Afghan government that clearly exempt goods imported into
           Afghanistan in support of the U.S. military mission from Afghan tariffs and customs duties.
           However, the Afghan government is charging DOD commercial carriers customs process fees for
           every exempt container of goods shipped into Afghanistan in support of U.S. military operations—
           fees totaling at least $1.03 million.


      •    Fines levied by the Afghan government for delayed customs documentation. In apparent violation
           of the Status of Forces Agreement between the U.S. and Afghan governments, the Afghan
           government has also charged fines for “late” or unprocessed customs declaration forms. As of


1SIGAR Audit 13-8, Taxes: Afghan Government Has Levied Nearly a Billion Dollars in Business Taxes on Contractors

Supporting U.S. Government Efforts in Afghanistan, May 14, 2013.
2As   discussed below, some of these costs have been agreed to by U.S. agencies, while others have not.
        May 2013, an official at the U.S. Army Military Surface Deployment and Distribution Command
        (SDDC) estimated that the Afghan government has levied more than $150 million in improper
        fines for unprocessed customs declaration forms since 2009. In addition, the Afghan government
        has restricted the freedom of movement for commercial carriers to deliver their cargos—such as
        foodstuffs destined for U.S. military and ISAF personnel—resulting in serious consequences for the
        U.S. government’s combat mission and reconstruction effort in Afghanistan.


    •   Visa and work permit fees. The Afghan government requires contractors to receive annual visas
        and work permits for each non-Afghan employee working in Afghanistan. While some bilateral
        agreements between various U.S. government agencies and the Afghan government may exempt
        certain U.S. personnel from requirements to obtain visas, other agreements are silent on the
        matter. Furthermore, no agreement between the Afghan government and either the U.S. or ISAF
        specifically exempts contractors from the need to obtain work permits. Our analysis of the visa
        and work permit process shows that, together, these costs amount to approximately $1,138 per
        employee per year.


    •   Business license and registration fees. All contractors supporting the U.S. government in
        Afghanistan are required to register annually with the Afghanistan Investment Support Agency
        (AISA) to obtain a business license. The fee associated with obtaining the required AISA business
        license ranges from $100 to $1,000 per year, depending on the type of industry in which the
        company will operate. At least 1,138 companies operated in Afghanistan in 2012 in support of
        U.S. operations; this would lead to business license fees ranging from $113,700 to $1,137,000
        for 2012 alone. Moreover, fees associated with registering security companies are significantly
        higher, amounting to $113,000 per company plus an additional $378,000 to be held in reserve to
        be confiscated in the event of a security incident. At least 40 security companies have applied for
        or been issued licenses, leading to between $2.3 million and $4.5 million in registration fees and
        between $7.6 million and $15.1 million in incident reserves held by the Afghan government.


Congress’s appropriations for the Afghanistan reconstruction effort are intended to build Afghan security
forces, improve governance, and foster economic development in Afghanistan. However, as SIGAR has
found, a substantial portion of these funds are being spent not to achieve these important goals, but,
rather, to pay the cost of doing business in Afghanistan. In addition to levying nearly a billion dollars in
business taxes on companies supporting U.S. government efforts in Afghanistan—most of which we believe
are improper based on applicable international agreements—the Afghan government is assessing
hundreds of millions of dollars in additional fines, fees, and penalties, some of which are also improper, on
many of these same companies. Enforcement efforts by the Afghan government to collect the assessed
fees delay the delivery of cargo necessary to support the troops and cost the U.S. taxpayer millions in
undue burden. From our work, we know that U.S. agencies, including the Departments of State and
Defense, are aware of these problems. The purpose of this letter is to inform Congress of our findings. As
the U.S. Congress considers future appropriations for Afghanistan, we believe it prudent to take into
account the costs we have detailed in this letter and their impact on U.S. operations in that country.




                                                                                                           2
Appendix III discusses our scope and methodology in conducting this work. Should you or your staff have
any questions or need additional information, please contact my Assistant Inspector General for Audits
and Inspections, Ms. Elizabeth Field, at 703-545-6006 or elizabeth.a.field9.civ@mail.mil.


                                                                   Sincerely,




                                                                   John F. Sopko
                                                                   Special Inspector General
                                                                    for Afghanistan Reconstruction




                                                                                                          3
LIST OF COMMITTEES

The Honorable Carl Levin
Chairman
The Honorable James M. Inhofe
Ranking Member
Committee on Armed Services
United States Senate
The Honorable Barbara A. Mikulski
Chairman
The Honorable Richard Shelby
Ranking Member
Committee on Appropriations
United States Senate
The Honorable Robert Menendez
Chairman
The Honorable Bob Corker
Ranking Member
Committee on Foreign Relations
United States Senate
The Honorable Thomas R. Carper
Chairman
The Honorable Tom A. Coburn, M.D.
Ranking Member
Committee on Homeland Security and Government Affairs
United States Senate
The Honorable Howard P. “Buck” McKeon
Chairman
The Honorable Adam Smith
Ranking Member
Committee on Armed Services
House of Representatives
The Honorable Harold Rogers
Chairman
The Honorable Nita M. Lowey
Ranking Member
Committee on Appropriations
House of Representatives
The Honorable Ed Royce
Chairman
The Honorable Eliot L. Engel
Ranking Member
Committee on Foreign Affairs
House of Representatives




                                                        4
The Honorable Darrell Issa
Chairman
The Honorable Elijah Cummings
Ranking Member
Committee on Oversight and Government Reform
House of Representatives




                                               5
APPENDIX I - ADDITIONAL COSTS IMPOSED ON CONTRACTORS
SUPPORTING U.S. OPERATIONS IN AFGHANISTAN

Customs Process Fees
U.S. government agencies, including the Department of Defense (DOD), have executed several
international agreements with the Afghan government that clearly exempt goods imported into Afghanistan
in support of the U.S. military mission from Afghan tariffs and customs duties. Since 2009, the U.S. Army
Military Surface Deployment and Distribution Command (SDDC), 3 in conjunction with the U.S. Embassy in
Kabul, has also exchanged a number of diplomatic notes with the Afghan government outlining a specific
process for SDDC to import goods for the U.S. military’s mission free from tariffs and customs duties. 4
However, the Afghan government is charging DOD commercial carriers customs process fees for every
exempt container of goods shipped into Afghanistan in support of U.S. military operations—fees that the
SDDC maintains are inconsistent with the Status of Forces Agreement (SOFA). 5
Under a process developed by the Afghan government, every container of goods entering the country must
be accompanied by a customs declaration form, commonly known as a T1. Each T1, purchased from the
Afghan Customs Department (ACD) for $18.92, 6 contains important information, such as shipment
contents, destination, point of origin, and recipient of the cargo. The T1 allows the Afghan government to
record imported goods and apply the appropriate tariff and customs duties, as prescribed in Afghanistan’s
customs law.
If a commercial carrier is shipping cargo that is exempt from Afghan tariffs and customs duties, the
commercial carrier must also purchase an exemption packet or “maffi namma” from the ACD at a cost of
$9.46; 7 for certain imports, up to four cargo containers in one shipment may be covered by a single maffi
namma. To complete the tariff exemption procedure, after delivery of the cargo, the commercial carrier
must submit the maffi namma and associated T1 to the ACD inland customs house closest to the point of
import for processing. The ACD uses the T1 form and the maffi namma to track imports and apply tariffs
and customs duties to goods as they enter Afghanistan. See figure 1 for a map of the ACD’s border
crossing points and inland customs houses.




3SDDC is responsible for the ground import and distribution of material necessary for U.S. military operations in

Afghanistan.
4Diplomatic Note 09-2233 sent by the U.S. Embassy in Kabul to the Afghan government on July 21, 2009; Diplomatic

Note 10-2656 sent by the U.S. Embassy in Kabul to the Afghan Government on May 26, 2010; and Diplomatic Note
10-3093 sent by the U.S. Embassy in Kabul to the Afghan Government on August 18, 2010.
5The U.S. and Afghan governments entered into the SOFA in May 2003. The SOFA exempts DOD personnel and

contractors from paying taxes on goods and services provided in Afghanistan. The SOFA further states that the
acquisition of goods and services in Afghanistan by or on behalf of the U.S. government are not subject to any taxes,
custom duties, or other similar charges.
6Each T1 costs 1,000 Afghanis. All conversions to U.S. dollars contained herein are based on conversion rate of 52.85

Afghanis per U.S. dollar, published by Da Afghanistan Bank on October 18, 2012.
7Each   maffi namma costs 500 Afghanis.

                                                                                                                        6
Figure 1 - Afghan Border Crossings and Inland Customs Houses




Source: United States Central Command, Defense Transportation Regulation – Part V, Department of Defense
Customs and Border Clearance Policies and Procedures, March 28, 2013.


The process developed by the SDDC and the U.S. Embassy in Kabul, in conjunction with the ACD, requires
commercial carriers to send a list of exempt cargo being imported to the SDDC. The SDDC then produces
an Interim Tariff Memo (ITM) that it sends to the border crossing point prior to the arrival of the convoy
carrying tax exempt cargo. Each ITM documents the exempt cargo and verifies that the cargo supports U.S.
military operations in Afghanistan. This ITM, in conjunction with the T1 and maffi namma, allows the
convoy and cargo to pass through the Afghan border crossing without paying tariffs and customs duties.
Although we were not able to obtain figures for the total number of T1s and maffi nammas purchased by
commercial carriers for the import of exempt goods, an official at the SDDC estimates that at least 54,000
T1s and 1,900 maffi nammas remained unprocessed as of May 2013. The total fees associated with just
these outstanding documents exceed $1.03 million.




                                                                                                           7
Fines Levied by the Afghan Government for Delayed Customs Documentation
In apparent violation of the SOFA, the Afghan government has also charged fines for “late” or unprocessed
T1s. Commercial carriers working for the SDDC have 21 days from the time exempt cargo crosses the
border into Afghanistan to deliver the cargo and return the properly stamped T1 and maffi namma to the
nearest ACD inland customs house for the ACD to complete the exemption process. If the ACD does not
process the exemption paperwork within 21 days of the date that the exempt cargo crossed into
Afghanistan, regardless of the reason for the delay, the Afghan government assesses a fine on the
commercial carrier for each outstanding T1.
In March 2012, the U.S. Transportation Command (SDDC’s parent command) issued guidance to all
commercial carriers importing exempt cargo into Afghanistan in support of U.S. military operations. The
command’s guidance stated that the T1 fines levied by the Afghan government on commercial carriers
importing exempt cargo violate the SOFA and instructed commercial carriers to refuse to pay T1 fines. 8
Nevertheless, the Afghan government continues to assess fines for late or unprocessed T1s. As of May
2013, an official at the SDDC estimated that the Afghan government has levied more than $150 million in
improper fines for unprocessed T1s since 2009. 9
Further, a SDDC official stated that, although the SDDC and Afghan government agreed on the ITM
process, the Afghan government has repeatedly altered its procedures and made it more difficult for
commercial carriers importing tax exempt cargo to avoid fines for late or unprocessed T1s. For example,
the official stated that the Afghan government has ceased accepting copies of transit paperwork and now
requires carriers to return to inland customs houses with original documentation. The ACD has also begun
starting the 21-day processing countdown from the time the border checkpoint receives the ITM for the
exempt cargo, often several days before the goods actually cross into Afghanistan. These changes have
led personnel to fly to customs houses to hand deliver original documents and avoid further fines.
The fines, and the Afghan government’s actions to enforce them, have had very real and serious
consequences for the U.S. government’s combat mission and reconstruction effort in Afghanistan.
Specifically, the ACD has stopped the passage—or revoked the freedom of movement—of commercial
carriers importing exempt goods due to outstanding T1 fines on numerous occasions. The U.S. Embassy in
Kabul, the SDDC, and ISAF have engaged the Afghan government to resolve the T1 issue on multiple
occasions. 10 In November 2012, ISAF sent a letter, endorsed by the SDDC, to the Afghan government
requesting that freedom of movement be restored for all cargo and carriers supporting ISAF and the U.S.
military with outstanding T1 fines. In December 2012, the Afghan Attorney General agreed that cargo
supporting ISAF and U.S. military operations cannot be denied entry into Afghanistan due to outstanding
T1 fines; 11 and on December 26, 2012, Afghanistan’s Internal and International Transit Director created a
proposal to absolve all outstanding T1 fines and restore freedom of movement for commercial carriers.
However, on January 15, 2013, the Afghanistan Cabinet of Ministers rejected the proposal, a decision
endorsed by President Karzai. On February 9, 2013, ISAF submitted a rebuttal to the Cabinet’s decision on
behalf of U.S. forces and the SDDC. Later that month, the Cabinet of Ministers rejected the rebuttal letter
and reiterated that T1 fines are valid and must be paid.




8United   States Transportation Command, Memorandum for USC Carriers, March 27, 2012.
9According to an SDDC official, prior to the command’s guidance, a number of commercial carriers paid T1 fines to
resolve customs issues and regain freedom of movement.
10The ISAF Commander is also the Commander of U.S. Forces-Afghanistan. ISAF engagement on the issue of
outstanding T1 fines includes engagement on behalf of DOD and other coalition partners.
11The   Afghan Ministry of Foreign Affairs and Ministry of Finance concurred with the Attorney General’s position.

                                                                                                                     8
Following the proposal’s rejection, the ACD issued 30-day freedom of movement letters that allowed
commercial carriers with outstanding T1 fines to continue operations. On March 5, 2013, the issue had
still not been resolved, and the ACD issued additional 20-day freedom of movement letters. After the
Afghan solar year ended in March 2013, the ACD leadership was replaced with new personnel who issued
a final letter on March 26, 2013, granting freedom of movement only through April 25, 2013. See the
timeline for an order of events related to the restriction of commercial carriers’ freedom of movement and
assessment of fines for outstanding T1s.




Source: SIGAR analysis of SDDC documentation.


When the last freedom of movement letter expired on April 25, 2013, the issue of outstanding T1s had still
not been resolved, and ACD officials at border crossings began to more vigorously enforce cargo
stoppages. One commercial carrier that supplies food and fuel for ISAF and the U.S. military stated that all
of its cargo was affected by the freedom of movement stoppage. According to a SDDC official, as of May
                                                                                                          9
2013, this carrier had 220 containers held at the port of Hairaton in northern Afghanistan. Some of these
containers contain foodstuffs destined for U.S. military and ISAF personnel. Moreover, because the carrier
is unable to reuse the containers while the cargo is held at the port, the commercial carrier charges the
U.S. contracting agency $100 per day, per container, totaling $22,000 per day. Similarly, the Afghan
government has held 440 containers from another commercial carrier with revoked freedom of movement
at the Torkam port in eastern Afghanistan since August 2012, because of outstanding T1 fines. Additional
containers containing fuel for U.S. and ISAF forces are being held at the port of Torghundi in western
Afghanistan.


Visa and Work Permit Fees
Pursuant to Afghan law, foreign contractors must receive annual visas and work permits for each non-
Afghan employee working in Afghanistan. The bilateral agreements between various U.S. government
agencies and the Afghan government seem to differ in their requirements for personnel to obtain visas,
and no agreements explicitly exempt contractors from the need to obtain work permits. For example, the
ISAF Military Technical Agreement states that contractor personnel “may enter and depart Afghanistan
with military identification and with collective movement and travel orders.” 12 In contrast, the DOD SOFA,
the INL Letters of Agreement, and USAID’s Strategic Objective Grant Agreements do not contain similar
language suggesting that their contractor personnel may be exempt from visa requirements. None of the
bilateral agreements we reviewed between the Afghan government and the U.S. agencies clearly states
whether contractor personnel are subject to work permit requirements. Our analysis of the visa and work
permit process shows that, together, these costs amount to approximately $1,138 per employee per year.
Figure 2 outlines the process and fees associated with obtaining necessary visas and work permits in
Afghanistan.




12 Military Technical Agreement Between the International Security Assistance Force and the Interim Administration of

Afghanistan, Annex A, Sec. 2.

                                                                                                                   10
Figure 2 - Visa and Work Permit Process




Note: The dollar amounts represented in this figure are based on SIGAR’s analysis of contractor interviews and Afghan
government sources. However, fees associated with this process may vary, based on Afghan government sources.

Source: SIGAR analysis of Afghan government sources and contractor interviews.




                                                                                                                  11
While we did not determine how many individuals working on behalf of the U.S. government in Afghanistan
applied for visas, a recent DOD report stated that more than 67,000 U.S. citizen and third country national
contractor personnel worked in Afghanistan for DOD during the second quarter of fiscal year 2013. 1314 If
all of those personnel obtained work permits and visas, it could cost DOD contractors over $76 million
each year. However, we do not believe that all of these contractor personnel obtained work permits and
visas because we believe that many travel directly to, and work exclusively on, DOD bases and fly into and
out of Afghanistan via military air. 15 Consequently, we believe those personnel do not interact with Afghan
immigration officials, and often do not apply for work permits and visas. According to DOD and State
guidance concerning general entry requirements for travel to Afghanistan, personnel in Afghanistan who
do not have valid visas are subject to “heavy” fines.


Business License and Registration Fees
As we noted in our audit report on business taxes issued in May 2013, all contractors supporting the U.S.
government in Afghanistan are required to register annually with the Afghanistan Investment Support
Agency (AISA) to obtain a business license and operate legally in Afghanistan. While SOFA specifically
exempts contractors supporting DOD from such registration requirements, the U.S. government ultimately
agreed that DOD contractors would nonetheless register with AISA. 16 Similarly, USAID guidance also
instructs contractors to register with AISA, and the U.S. Embassy in Kabul maintains a website instructing
contractors to obtain a business license to operate legally in Afghanistan. 17 When applying for a business
license, contractors must provide information such as the name and address of the company, a company
contact, a business plan, and register the industry in which the company will operate. The fee associated
with obtaining the required AISA business license—for non-security services—ranges from $100 to $1,000
per year, depending on the type of industry the company is registering for and the size of the business. A
search of the Federal Procurement Data System showed that at least 1,137 companies operated in
Afghanistan in 2012 in support of U.S. operations; this would lead to business license fees ranging from
$113,700 to $1,137,000 for 2012 alone.
The fees associated with registering a security company are significantly higher than those for registering
other types of companies. In August 2010, President Karzai issued Presidential Decree 62 ordering the
disbandment of private security contractors and allowing for the creation of risk management
companies. 18 The fee for registering a non-Afghan risk management company is approximately




13Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility to Include Iraq and Afghanistan,
Deputy Assistant Secretary of Defense for Program Support, April 2013. We could not obtain similar data for the
number of non-Afghan contractors supporting State and USAID.


15 The DOD country clearance guide for Afghanistan states that contractor personnel who arrive in Afghanistan on a

U.S. military aircraft can depart visa commercial air if they have legalized their status, otherwise they should depart via
U.S. military aircraft.
16See   Diplomatic Note 12-4021 sent by the Embassy in Kabul to the Afghan government on September 10, 2012.
17 Embassy of the United States Kabul, Afghanistan Frequently Asked Questions,

http://kabul.usembassy.gov/business-faq.html, accessed on December 3, 2012.
18The bridging strategy created after Presidential Decree 62 placed limits on the size of private security contractors.

The Afghan government has imposed fines on private security contractors for exceeding employee man caps. One
contractor that provided necessary security services for DOD and ISAF has paid more than $1.2 million in penalties for
exceeding the cap on the number of employees it can have in Afghanistan. A second contractor that provided security
services for the DOD and two private contracts has paid more than $746,000 in employee penalties.

                                                                                                                        12
$113,000. 19 The Afghan government also requires risk management companies to pay an additional
$378,000 as a reserve that will be confiscated should a security incident occur. 20 In this review, we did
not determine how many risk management companies support U.S. operations in Afghanistan. However,
according to the Afghan Public Protection Force’s published record, at least 40 companies have applied
for, or have been issued risk management licenses, leading to between $2.3 million and $4.5 million in
registration fees paid to the Afghan government and between $7.6 million and $15.1 million in incident
reserves held by the Afghan government.




19The   fee for registering a non-Afghan risk management company is 6 million Afghanis.
20The incident reserve for a non-Afghan risk management company is 20 million Afghanis. The fees for registering an
Afghan risk management company with the Afghan Public Protection Force are exactly half the cost for registering a
non-Afghan risk management company.

                                                                                                                 13
APPENDIX II - APPLICABLE LANGUAGE FROM BILATERAL AGREEMENTS

Each bilateral agreement contains specific language that provides exemption from tariffs, customs duties,
and other fees levied by the Afghan government on goods brought into Afghanistan in support of the U.S.
government mission. Below is the applicable language from each agreement.


Department of Defense (DOD)
The U.S. and Afghan governments entered into a Status of Forces Agreement (SOFA) in May 2003. The
SOFA exempts DOD personnel and contractors from paying taxes on goods and services provided in
Afghanistan. The SOFA further states that the acquisition of goods and services in Afghanistan by or on
behalf of the U.S. government are not subject to any taxes, custom duties, or other similar charges.
Specifically, the SOFA states that,
          “the Government of the United States of America, its military and civilian personnel,
          contractors and contractor personnel shall not be liable to pay any tax or similar charge
          assessed within Afghanistan.
          The Government of the United States of America, its military and civilian personnel,
          contractors and contractor personnel may import into, export out of, and use in the
          Republic of Afghanistan any personal property, equipment, supplies, materials,
          technology, training or services required to implement this agreement. Such importation,
          exportation and use shall be exempt from any inspection, license, other restrictions,
          customs duties, taxes or any other charges assessed within Afghanistan.”
While the SOFA does not specifically address the requirement for its contractors to obtain visas and work
permits, the SOFA may provide a visa exemption for DOD military and civilian personnel who arrive and
depart via U.S. military aircraft. Specifically, the SOFA states that,
          “…military and civilian personnel of the United States Department of Defense who may be
          present in Afghanistan in connection with cooperative efforts in response to terrorism,
          humanitarian and civic assistance, military training and exercises, and other activities.
          The Embassy proposes, without prejudice … that such personnel be accorded a status
          equivalent to that accorded to the administrative and technical staff of the Embassy of
          the United States of America under the Vienna Convention on Diplomatic Relations of
          April 18, 1961; that United States personnel be permitted to enter and exit Afghanistan
          with United States identification and with collective movement of individual travel
          orders…”
Even though the SOFA refers to U.S personnel and contractors, DOD and Department of State (State)
officials agree that the SOFA applies only to DOD personnel and contractors. 21


Department of State

In February 2003 and in March 2006, the United States government entered into agreements with the
Afghan government to provide tax-exempt status to both the non-Afghan contractors supporting the


21SIGAR  interviewed officials from all contracting agencies and met with officials from DOD Office of General Counsel,
State Office of the Legal Adviser, and USAID Regional Legal Office. DOD Office of General Counsel and State Legal
Office stated that the SOFA only applies to DOD contractors. USAID Regional Legal Office officials stated that SOFA
does not apply to USAID contractors.

                                                                                                                     14
Department of State Bureau of International Narcotics and Law Enforcement Affairs (INL) counternarcotics
and law enforcement efforts and materials imported in support of INL’s mission. These agreements state,

           “Any funds, material and equipment introduced into Afghanistan by the USG [United
           States Government] or by any person or entity (including but not limited to contractors
           and grantees) funded by the USG pursuant to this Agreement shall be exempt from taxes,
           service charges and investment or deposit requirements and currency control in
           Afghanistan, and the import, export, acquisition, use or disposition of any such property
           or funds in connection with this Agreement shall be exempt from any tariffs, custom
           duties, import and export taxes, taxes on purchases or disposition and any other taxes or
           similar charges in Afghanistan.” 22

For materials imported into Afghanistan in support of Embassy operations, State relies upon protections
set in the 1961 Vienna Convention on Diplomatic Relations. Specifically, the Convention states:

           “The receiving State shall, in accordance with such laws and regulations as it may adopt, permit
           entry of and grant exemption from all customs duties, taxes, and related charges other than
           charges for storage, cartage and similar services, on:
                (a) Articles for the official use of the mission;”
This provision exempts materials imported for the use of the Embassy from tariffs, customs duties, and
other fees related to their import.
Neither the INL agreements nor the 1961 Vienna Convention contain specific provisions applicable to
determining whether State contractors in Afghanistan are exempt from visa and work permit requirements.


U.S. Agency for International Development (USAID)

In 1951 USAID and the Afghan government executed the Point Four General Agreement for Technical
Cooperation stating that

           “Any funds, materials and equipment introduced into Afghanistan by the Government of the
           United States of America pursuant to such program and project agreements shall be exempt from
           taxes, service charges, investment or deposited requirements, and currency controls.”

This language, still in force today, allows for contractors to import goods for the USAID mission, into
Afghanistan free of tariff and customs duties. In September 2005, in conjunction with the 1951 accord,
USAID established four Strategic Objective Grant Agreements with the Afghan government. These
agreements allow U.S. foreign assistance to be used for development and civil society projects and state
that the “assistance... is free from any taxes imposed under laws in effect in [Afghanistan].” Together,
these agreements state that materials imported into Afghanistan in support of USAID projects are tariff
free and that non-Afghan contractors working on behalf of USAID are tax-exempt.

Neither the Point Four General Agreement for Technical Cooperation or the SOAGs specifically address the
Afghan government’s visa and work permit requirements.



22Letter of Agreement on Police, Criminal Justice, and Counternarcotics Support Programs Between The Government
of the United States of America and The Islamic Republic of Afghanistan (March 9, 2006). And Letter of Agreement on
Police, Justice, and Counternarcotics Programs Between The Government of the United States of America and The
Transitional Islamic State of Afghanistan (February 19, 2003).

                                                                                                                15
International Security Assistance Force (ISAF) and North Atlantic Treaty Organization
(NATO)

In addition to the agreements between U.S. government agencies and the Afghan government, NATO has
entered into its own agreement with the Afghan government. The Military Technical Agreement, signed in
January 2002, defines the relationship between ISAF and the Afghan government, 23 and grants material
imported in support of ISAF’s mission and ISAF military and civilian personnel tax-exempt status.
Specifically, the agreement provides that,

          “The ISAF will be allowed to import and export free of duty or other restriction, equipment,
          provisions and supplies necessary for the mission…
                                                       ****
          . . ISAF will be allowed to contract direct [sic] with suppliers for services and supplies in
          Afghanistan without payment of tax or duties. Such services and supplies will not be
          subject to sales or other taxes.
                                                       ****
          . . . local personnel hired by ISAF will . . . [b]e exempt from taxation on the salaries and
          emoluments paid to them by the ISAF.” 24
On March, 9, 2011, ISAF’s Commanding General issued a letter of interpretation to the Afghan
government’s Minister of Finance declaring that, as of March 21, 2011, Afghan contractors and
employees were no longer tax-exempt with regard to profits and wages earned while working on behalf of
ISAF. In addition, the letter declared that non-Afghan subcontractors to ISAF, as well as contractors, are
exempt from taxes. 25 While the MTA does not explicitly exempt contractors from work permit requirements,
the MTA may provide exemption for ISAF personnel and contractors supporting ISAF from visa
requirements as it states:
          “The Interim Administration understands and agrees that the ISAF and supporting
          personnel, including associated liaison personnel, may enter and depart Afghanistan with
          military identification and with collective movement and travel orders.”




23ISAFconducts operations in Afghanistan to reduce the capability and will of the insurgency, support the growth in
capacity and capability of the Afghan National Security Forces, and facilitate improvements in governance and socio-
economic development. ISAF funding and forces come from the various NATO member states, primarily the US
government.
24 Military Technical Agreement between the International Security Assistance Force (ISAF) and the Interim

Administration of Afghanistan (‘Interim Administration’), January 2002.
252011   COMISAF Letter of Interpretation: March 9, 2011.

                                                                                                                   16
APPENDIX III - SCOPE AND METHODOLOGY

In June 2012, we initiated an audit to determine the extent to which U.S. contractors working in Afghanistan
were subject to tariffs, customs duties, and taxes. On May 14, 2013, SIGAR issued a report resulting from
this audit, which focused on income taxes and associated penalties, titled Taxes: Afghan Government Has
Levied Nearly a Billion Dollars in Business Taxes on Contractors Supporting U.S. Government Efforts in
Afghanistan, SIGAR Audit 13-8. We decided to report separately on tariffs and customs process fees. 26
Specifically, our objective was to identify the extent to which the Afghan government has assessed tariffs,
customs process fees, and other fines, fees, and penalties on U.S. contractors conducting business in
Afghanistan.
To accomplish our objective, we reviewed documents related to tariffs and penalties for the period
between January 1, 2002 and May 11, 2013. We also reviewed guidance related to Afghan tariff and
customs law, international agreements, and government contracting agencies; obtained information
through interviews and documentation on the Afghan process for determining tariffs and customs process
fees on goods imported into Afghanistan; and identified the extent to which the Afghan government charges
U.S. government contractors for importing goods and obtaining visas, work permits, and business licenses.
Because no database existed that identified the amounts paid by U.S. contractors conducting work in
Afghanistan, we used several methods to obtain this type of information, including soliciting the data from a
source with knowledge of customs and tariffs, using publicly available information, and computer processed
data. For all types of data collection, we determined that data reliability was sufficiently reliable to address
our objective.
For determining customs process fees, we used data provided by the U.S. Surface Deployment Distribution
Command (SDDC). The SDDC is responsible for the ground transportation of goods destined for U.S. forces
in Afghanistan. Using data collected since 2009, the SDDC was able to calculate the number of outstanding
T1s and maffi nammas issued for the import of goods for U.S. military forces in Afghanistan. Furthermore,
the SDDC was able to gain an estimate of the cost of the fines for the outstanding T1s from the Afghan
government. We utilized self reported information from the SDDC and did not independently verify the
accuracy of the data.
For estimating the number of visas and work permits issued, we used publicly available data published by
the U.S. Central Command on the number of contractors operating within U.S. Central Command’s area of
operations. 27 This report stated the number of U.S. citizen and third country national contractors working in
Afghanistan during the second quarter of fiscal year 2013. We were able to use this information, along with
our understanding of the applicable bilateral agreements and Afghan law, to estimate the number of visas
and work permits that could have been issued to U.S. citizen and third country national contractors during
that period. We utilized self reported information published by the DOD and did not independently verify
the accuracy of the data.
For determining fees associated with the issuance of business licenses, we used the Federal Procurement
Data System (FPDS) database for contractors with operations in Afghanistan. FDPS is a searchable
database of federal contracting actions, maintained by the U.S. government, that allows for queries of
contract actions using variables such as contractor name, contracting office, action date, and place of
performance. We searched FPDS for all contractors operating in Afghanistan during calendar year 2012,
and estimated the number of business licenses that could have been issued to these companies.
Furthermore, we used data published by the Afghan Public Protection Force, the state run corporation


26   The audit work was conducted under the project code SIGAR-060A.
27Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility to Include Iraq and Afghanistan,
Deputy Assistant Secretary of Defense for Program Support, April 2013.

                                                                                                                   17
responsible for providing security services, to estimate the number of risk management companies
operating in Afghanistan. We did not assess the reliability of FPDS. However, we only utilized the data
retrieved from FPDS for the purposes of creating an estimate of the number of contractors operating on
behalf of U.S. contracting agencies in Afghanistan during calendar year 2012.
We reviewed the Afghan customs process fee procedures to assess internal controls and the results are
included in the body of the report.
This report is largely based on audit work we conducted under SIGAR code 060A for our May 2013
business taxes audit, which was conducted in Kabul, Afghanistan, and Washington D.C., from June 2012
to January 2013, in accordance with generally accepted government auditing standards. Additional work
for this report subsequent to the May 2013 business taxes audit was conducted in accordance with
SIGAR’s quality control policies. Those standards and policies require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. SIGAR conducted this audit under the authority of
Public Law No. 110-181, as amended and the Inspector General Act of 1978, as amended.




                                                                                                          18
